DOE/IG-0469




         AUDIT
        REPORT




                                LAND CONVEYANCE AND TRANSFER AT
                                 LOS ALAMOS NATIONAL LABORATORY




                                              APRIL 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                               April 28, 2000



MEMORANDUM FOR THE SECRETARY


FROM:                 Gregory H. Friedman      (Signed)
                      Inspector General


SUBJECT:              INFORMATION: Audit Report on "Land Conveyance and Transfer at Los Alamos
                      National Laboratory"


BACKGROUND

As part of Public Law 105-119 (Act), which was enacted in November 1997, the Department of Energy is
to convey tracts of land at or in the vicinity of Los Alamos National Laboratory (Los Alamos) to the
Incorporated County of Los Alamos (County) and the Department of Interior, in trust for the Pueblo of San
Ildefonso (Pueblo). According to the Act, the conveyed lands shall be used for historic, cultural, or
environmental preservation purposes, economic diversification purposes, or community self-sufficiency
purposes. The Department of Energy (Department) identified ten tracts of land or approximately 4,000
acres to be transferred.

The Department submitted a Combined Data Report (CDR) to Congress in January 2000. The CDR
summarized information regarding environmental restoration or remediation required for the subject tracts
and the potential environmental impacts associated with the transfer of the tracts, with total estimated cost
of approximately $383.4 million. Of this total, about $322.3 million is for actual environmental restoration
and remediation costs including decontamination and decommissioning. The remaining $61.1 million was
for landlord costs associated with the process of transferring the land tracts. As of April 2000, these
landlord cost estimates were approximately $32 million, which is $29 million less than the original estimate
in the CDR.

The objective of this audit was to determine whether the Department validated the cost estimates associated
with the conveyance and transfer of land at Los Alamos National Laboratory.

RESULTS OF AUDIT

For the ten tracts of land identified for conveyance and transfer at Los Alamos, we found that the
Department has validated the environmental restoration and remediation cost estimates but has not
validated the cost estimates associated with landlord activities. The Department relied upon Los Alamos
personnel to prepare landlord cost estimates instead
of implementing a formal validation process. As a result, the Department had no assurance that the
proposed costs for landlord activities reflect the costs to convey and transfer the land at Los Alamos.
Subsequent to our fieldwork, the Department obtained limited assurance on the estimated landlord costs and
time for completion. However, cost estimates for cultural resource mitigation activities were not reviewed.

 MANAGEMENT REACTION

The Department agreed with the finding and recommendations. The Department stated that it will continue
to negotiate with the County of Los Alamos, San Ildefonso Pueblo, U.S. Environmental Protection Agency,
and the State of New Mexico to minimize costs associated with the conveyance and transfer of land at Los
Alamos. In addition, by
May 31, 2000, the Department stated that it will have developed a formal plan to validate the cost estimates
associated with landlord activities for the conveyance and transfer of land at Los Alamos. The Department
also committed to implementing the plan as it negotiates the activities, parcel by parcel, with the
appropriate parties and agencies.


Attachment

cc:    Deputy Secretary
       Under Secretary
       Acting Under Secretary for Nuclear Security/Administrator for Nuclear Security
AUDIT OF LAND CONVEYANCE AND TRANSFER AT LOS ALAMOS
NATIONAL LABORATORY

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations...............................................….2


               Validation of Land Conveyance and Transfer Cost Estimates

               Details of Finding.......................................................................3

               Recommendations and Comments ...........................................6


               Appendix

               Scope and Methodology...........................................................10
OVERVIEW


INTRODUCTION AND   Under Public Law 105-119 (Act), enacted in November 1997, the
OBJECTIVE          Secretary of Energy is to convey tracts of land at or in the vicinity of
                   Los Alamos National Laboratory (Los Alamos) to the Incorporated
                   County of Los Alamos (County) and the Secretary of the Interior, in
                   trust for the Pueblo of San Ildefonso (Pueblo). The Act sets forth the
                   criteria, processes, and dates by which the tracts will be selected, titles
                   to the tracts reviewed, environmental issues evaluated, and decisions
                   made as to the allocation of the tracts between the two recipients.
                   According to the Act, the conveyed lands shall be used for historic,
                   cultural, or environmental preservation purposes, economic
                   diversification purposes, or community self-sufficiency purposes.
                   Subsequently, the Department of Energy (Department) identified ten
                   tracts of land or approximately 4,000 acres to be transferred.

                   In accordance with the Act, the Department submitted a Combined Data
                   Report (CDR) to Congress in January 2000, summarizing information
                   regarding environmental restoration or remediation required for the
                   subject tracts and the potential environmental impacts associated with
                   the transfer of the tracts. According to the CDR, the total estimated
                   cost to restore or remediate and transfer the ten tracts is approximately
                   $383.4 million. Of this total, about $322.3 million is for actual
                   environmental restoration and remediation costs (ER costs) including
                   decontamination and decommissioning. The Department is obligated to
                   restore or remediate the ten tracts regardless of whether the land is
                   transferred. The CDR estimated that $61.1 million would be needed to
                   pay for landlord costs1 associated with the process of transferring the
                   tracts.

                   Also, the Act required the County and Pueblo to come to an agreement
                   as to the allocation of land tracts to be conveyed and transferred. This
                   Land Allocation Agreement was submitted to the Secretary of Energy
                   (Secretary) on January 7, 2000. Further, the Act required that the
                   Department prepare and submit a Conveyance and Transfer Plan (CTP)
                   to Congress 90 days after the Land Allocation Agreement was
                   submitted to the Secretary. Although the CTP should have been


                   _________________
                   1
                    Landlord costs address cultural resources, consultations for threatened and
                   endangered species and flood plains/wetlands, fencing water resource monitoring
                   stations, moving personnel from one location to another to allow alternative use of a
                   tract, moving air monitors, fencing material disposal areas, and preparing various
                   necessary transfer documents.


Page 1                                                                 Introduction and Objective
                  submitted to Congress on April 7, 2000, the Department intends to
                  submit the CTP in May 2000. The CTP presents the Department's plan
                  for accomplishing the land transfer within the timeframes established
                  by the Act. Because of refinements in cost estimates by Los Alamos, the
                  current draft of the CTP estimates the landlord costs to be approximately
                  $32 million, which is $29 million less than the original estimate in the
                  CDR.

                  The objective of this audit was to determine whether the Department
                  validated the cost estimates associated with the conveyance and transfer
                  of land at Los Alamos National Laboratory.


CONCLUSIONS AND   Although the Department has validated the ER costs, it has not validated
OBSERVATIONS      the cost estimates associated with landlord activities for the ten tracts of
                  land identified for conveyance and transfer at Los Alamos. The
                  Department relied upon Los Alamos personnel to prepare landlord cost
                  estimates instead of implementing a formal validation process. As a
                  result, the Department has no assurance that the estimated costs for
                  landlord activities reflect the costs to convey and transfer the land at Los
                  Alamos. Subsequent to our fieldwork, the Department has obtained
                  limited assurance on the estimated landlord costs and time for
                  completion. However, cost estimates for cultural resource mitigation
                  activities were not reviewed.

                  The audit identified issues that management should consider when
                  preparing its yearend assurance memorandum on internal controls.


                                                          (Signed)

                                                 Office of Inspector General




Page 2                                                     Conclusions and Observations
VALIDATION OF LAND CONVEYANCE AND TRANSFER COST ESTIMATES

Landlord Cost      The Department has not validated the cost estimates associated with
Estimates Not      landlord activities for the ten tracts of land identified for conveyance
Validated          and transfer at Los Alamos. Since the issuance of the CDR, many of
                   the assumptions which effect cost estimates have changed. Los Alamos
                   originally estimated that it would require about $500,000 to mitigate
                   each cultural resource site. However, in the latest draft of the CTP
                   dated April 2000, Los Alamos revised the estimates on cultural resource
                   mitigation based on the actual type of site to be mitigated and a refined
                   cost based on the type of site. This resulted in an estimate of $150,000
                   to remediate a small site. This estimate was then applied to each
                   cultural resource site based on its relative size. Additionally, Los
                   Alamos officials stated that assumptions were made as to the number of
                   cultural sites requiring mitigation based on Los Alamos’ discussions
                   with the State Historic Preservation Officer.

                   Also in the CDR, the landlord costs associated with the Los Alamos
                   Area Office (LAAO) were estimated to be approximately $15.3 million.
                   This estimate was based on the assumption that providing a new facility
                   for Department personnel was a landlord cost. However, in the draft
                   CTP it was assumed that the cost associated with a new facility should
                   be considered a Department, rather than landlord cost. As a result, total
                   landlord costs for the LAAO in the draft CTP decreased by
                   approximately $14.7 million. Also in the CDR, the total landlord cost
                   for "Air Resources" for all ten tracts of land was estimated to be
                   approximately $282,000. This estimate was based on the assumption
                   that transferring some of the tracts would require a change in air
                   monitoring requirements and the relocation of air monitoring
                   equipment. However, the Department stated that until Los Alamos
                   County actually started construction on these lands, there would not be
                   a requirement to move the monitor stations. According to the
                   Department, this assumption was based on input from the U. S.
                   Environmental Protection Agency (EPA) and Los Alamos County. As
                   a result, previous estimates of costs for air resources were removed
                   from the cost estimate in the draft CTP.

                   Additionally, some assumptions may become invalid as the project
                   proceeds. For example, the estimated cost in the CDR for a TA-74
                   "Mitigation Action Plan" was $150,000 and represented an estimate to
                   prepare the Mitigation Action Plan being written for the Conveyance
                   and Transfer Environmental Impact Statement. According to one Los
                   Alamos Official, this estimate was based on an assumption that it would
                   be necessary to conduct some mitigation activities based on a
                   Mitigation Action Plan which has not yet been developed. The
                   Mitigation Action Plan may not require any additional work, and the
                   related cost estimates could be eliminated.

Page 3                                                                  Details of Finding
                                 We recognize that cost estimates are subject to change when the
                                 bases used to develop the estimates are updated. Additionally, we
                                 were informed that the Department has held numerous discussions
                                 with Los Alamos regarding the methodology and assumptions used
                                 to determine land transfer costs. However, we were concerned that
                                 differing estimating approaches and techniques were used in this
                                 process. Thus, we concluded that the Department should formally
                                 validate the cost estimates to ensure they are complete, reasonable,
                                 and supported.


Validation of Cost Estimates DOE Order 5700.2D, "Cost Estimating, Analysis, and
Required                     Standardization," defines cost estimates as a statement of costs
                             estimated to be incurred in the conduct of an activity. The Order
                             requires that Managers of Department Field Offices develop and
                             maintain local cost guides that outline procedures to be used by
                             operating contractors and Department personnel while reviewing
                             cost estimates. The Order allows for estimates to be in the form of a
                             proposal by contractors. However, in such cases, cost estimates are
                             to be reviewed by someone other than the estimator. It is highly
                             desirable that a third party develop an independent cost estimate to
                             compare to the original estimate for reasonableness.

                                 In addition, DOE Order 130.1, "Budget Formulation", states that the
                                 Department shall prepare and submit sound budget requests. As part
                                 of this responsibility, budget requests are to be based on cost
                                 estimates that have been thoroughly reviewed and deemed
                                 reasonable by the cognizant Field Office and Headquarters program
                                 organization. Also, the Order assigns responsibility to the Field
                                 Office to submit documentation of its budget review of contractor
                                 budget estimates to Headquarters. Further, the Management and
                                 Operating Contractor is required to establish formal procedures for
                                 performing budget process functions which includes preparation of
                                 cost estimates and internal validation reviews.


No Formal Validation             The Department relied upon Los Alamos personnel to prepare
Process                          landlord cost estimates instead of implementing a formal validation
                                 process. The Department did not use cost guides to review the cost
                                 estimates nor did the Department prepare an independent cost
                                 estimate for comparison purposes. The Department has not formally
                                 reviewed or approved the estimation methods or assumptions used
                                 by Los Alamos to derive the estimated landlord costs presented in



Page 4                                                                                Details of Finding
                             either the CDR or the Department's current CTP, both of which must
                             be submitted to Congress. These estimation methods and
                             assumptions used by Los Alamos relate to land usage, time
                             schedules, construction and relocation activities, and cultural
                             resource mitigation activities. Although these estimates were
                             formulated by "knowledgeable" lab personnel, Los Alamos officials
                             acknowledged that the estimates were "first cut assumptions", and
                             "ball park estimates", to be used only for planning purposes.

                             Additionally, the landlord cost estimates were not formally validated
                             because the Department and Los Alamos were unsure of the
                             County's intended use for the land. Hence, Los Alamos developed
                             and included cost estimates in the CDR although the recipient of the
                             land (either County or Pueblo) was unknown. The Department stated
                             that with the signing of the Land Allocation Agreement in January
                             2000, cost estimates associated with tracts of land designated for the
                             County have been revised, and negotiations on preservation
                             agreements are being held to further refine these estimated costs.

                             In contrast to its treatment of the landlord cost estimates, the
                             Department has implemented a process for reviewing, validating,
                             and approving estimated ER costs. The ER costs are consistent with
                             the Department's Environmental Restoration Project Fiscal Year
                             2000 Life Cycle Baseline, which are supported by Technical Scope
                             Descriptions. The Department reviews Technical Scope
                             Descriptions and determines whether the scope of work outlined is
                             reasonable. Moreover, the Albuquerque Operations Office
                             performed a month-long validation of the information in the baseline
                             for the ten tracts of land identified for conveyance and transfer. This
                             validation included a review of sample costs by independent cost
                             estimators.


Unvalidated Cost Estimates   The Department has no assurance that the cost estimates for landlord
to Congress                  activities reflect the costs to convey and transfer the land at Los
                             Alamos. Subsequent to our fieldwork, the Department obtained
                             limited assurance on the estimated landlord costs and time for
                             completion. However, cost estimates for cultural resource mitigation
                             activities were not reviewed. On April 12, 2000, the Department
                             requested that the U.S. Corps of Engineers (Corps) perform a cursory
                             review of the estimated costs associated with the proposed land
                             transfer. On April 24, 2000, the Corps reported that the estimated
                             cost and time for completion were within reasonable parameters for
                             planned actions. The Corps also noted that its effort was a less than

Page 5                                                                          Details of Finding
                    in-depth review of the cost estimates and that a more detailed review
                    might produce different or additional recommendations.

                    Despite the recent review by the U.S. Corps of Engineers, many of
                    the landlord costs appeared to be excessive for some tracts when the
                    size and condition of the tracts to be transferred was considered. To
                    illustrate, the estimated landlord cost to transfer Manhattan
                    Monument was $83,000. The Monument tract is approximately 400
                    square feet in size, has a plaque covered by a small pavilion, and
                    there is no known contamination associated with this tract. County
                    representatives indicated that the County might be willing to accept
                    the Manhattan Monument without indemnification. Similarly Site
                    22, which is approximately 6,500 square feet, has a small amount of
                    construction debris and no known contamination. Yet, the landlord
                    cost estimate for this tract is approximately $120,000. Given the size
                    of these tracts and their acknowledged condition, we concluded that
                    the landlord costs appear out of proportion as currently estimated.

                    We believe there are other mechanisms to reduce site-specific
                    landlord costs. Two examples which are part of the proposed ten
                    tracts conveyance were TA-74 and White Rock-Y. The County
                    identified "environmental preservation" as the intended use for its
                    portion of these tracts of land. If the Department and the County
                    could agree that these tracts remain "environmental preservation" in
                    perpetuity, Department transfer costs would be reduced significantly.
                    For example, the Department could avoid performing archeological
                    excavation of cultural resources located on these sites saving $21
                    million in landlord costs.

                    Although the estimated landlord costs have not been identified in any
                    Departmental budget request to date, the Department expressed its
                    intent to use these estimates in the formulation of future budgets to
                    fund the activities necessary to transfer the tracts of land. However,
                    no decision has been made whether to fund these conveyance and
                    transfer activities with direct program funds or Los Alamos indirect
                    accounts.


  RECOMMENDATIONS   We recommend that the Acting Associate Deputy Assistant
                    Secretary for Facilities Management and ES&H Support:

                         1. Continue to negotiate with the County, EPA, and the State
                            of New Mexico to minimize costs associated with the
                            conveyance and transfer of land at Los Alamos, and

Page 6                                             Recommendations and Comments
                           2. Implement a formal process to validate the cost estimates
                              associated with landlord activities for the conveyance and
                              transfer of land at Los Alamos.


MANAGEMENT REACTION   Management concurred with the finding and recommendations. The
                      following represents management's comments.

                      The Department will continue to negotiate with the County of Los
                      Alamos, San Ildefonso Pueblo, EPA, and the State of New Mexico to
                      minimize costs associated with the conveyance and transfer of land
                      at Los Alamos. In addition, by May 31, 2000, the Department will
                      develop a formal plan to validate the cost estimates associated with
                      landlord activities for the conveyance and transfer of land at Los
                      Alamos; the Department will implement the plan as it negotiates the
                      activities, parcel by parcel, with the appropriate parties and agencies.

                      However, management believed that the OIG's report is premature.
                      While the report accurately states that the Department does not have
                      a formalized process in place for validating landlord cost estimates,
                      management contends that the OIG recommends actions that the
                      Department is pursuing as a matter of course, and which the
                      Department will complete in the near future. Additionally, the
                      Department will be able to provide more accurate, validated cost
                      estimates for landlord activities, after negotiations with the other
                      governmental agencies are completed, and after determinations are
                      made on the extent to which mitigating actions are required to
                      protect cultural and archeological resources. The Department needs
                      to complete serious negotiations with the New Mexico State Historic
                      Preservation Officer, the County of Los Alamos, San Ildefonso
                      Pueblo, and the Bureau of Indian Affairs prior to the formulation and
                      validation of landlord costs which can be expected, to have a degree
                      of correlation to the final actual costs.

                      Similarly, the Department needs to determine the extent to which
                      additional environmental baseline data is required on a land parcel
                      by land parcel basis in order to form an opinion on the potential risks
                      (and potential future liabilities and costs) associated with
                      indemnification of Los Alamos County.

                      At this point in time, the Department has been required to provide
                      land transfer cost estimates for Congressional reports, and for
                      budgetary planning. However, the numbers presented in the CDR

Page 7                                                Recommendations and Comments
                   and draft CTP were never presented or intended to be budget quality
                   numbers, therefore, the reference in the report to the Department's
                   Budget Process is not applicable. These numbers were estimates and,
                   as such, the Department should have followed the Department Order on
                   Cost Estimates, but it did not because of the continuing discussions
                   with the recipients and government agencies involved, as well as, the
                   continuing changes throughout this land process. The Department has
                   consistently attempted to provide the best cost estimates available for
                   the Environmental Restoration and landlord costs. This is evident in
                   that every report, which is required by the Act, has produced a more
                   thorough and more accurate cost estimate.

                   The Act provides a schedule for the Secretary of Energy to deliver
                   certain reports to Congress. The due dates for these reports has
                   consistently been out of phase with the time required to complete
                   certain necessary steps that would provide more accurate and validated
                   cost data. For example, the CDR was due to Congress months before
                   the land allocation agreement was signed between Los Alamos County
                   and the Pueblo of San Ildefonso. This land allocation agreement
                   identified the recipient of each land transfer parcel to the Department.
                   This information is critical to the land transfer cost identification and
                   validation process.

                   In summary, management believes that the land conveyance and
                   transfer process is dynamic, with cost estimates subject to refinement as
                   discussions with the appropriate government agencies and land
                   recipients get finalized. Thus, the OIG report is only a snapshot in time
                   and does not reflect the dynamic process and continuing discussions.


AUDITOR COMMENTS   We consider management's comments to be responsive to the
                   recommendations.

                   We recognize that the Department has made significant efforts to refine
                   the estimated costs associated with the conveyance and transfer of land
                   at Los Alamos. However, management acknowledged that it has not
                   implemented a formal process to ensure that landlord cost estimates are
                   validated. Since some validation is planned, it would be prudent for the
                   Department to fully incorporate the techniques and concepts identified
                   in the DOE Order on Cost Estimating. Implementing a formal
                   validation process will assist the Department in identifying and
                   planning required mitigation activities, potential risks of
                   indemnification, and negotiation strategies associated with the ten tracts
                   of land identified for conveyance and transfer. Using the Corps of
                   Engineers is a good first step in trying to refine the cost estimates but
Page 8                                               Recommendations and Comments
         the Department needs to identify what additional steps are necessary to
         ensure that the cost estimates are reasonable and supported.

         Although the Department has not included the cost estimates in it
         budget submissions to date, the Department has been required to
         provide land transfer and cost estimates in reports to Congress and for
         budgetary planning purposes. This would indicate that the Congress is
         interested in the costs associated with these activities and that the
         Department's future budget requests to Congress may include the
         necessary funding for the land transfer activities. In this light, the
         Department should include the requirements of the DOE Order on the
         Budget Formulation in its validation process to ensure that future
         budget submissions are supported and are in accordance with
         Department guidance.




Page 9                                    Recommendations and Comments
Appendix

SCOPE         The audit was performed from March 16, to April 14, 2000 at Los
              Alamos, New Mexico; Germantown, Maryland; and Department
              Headquarters.


METHODOLOGY   To accomplish the audit objective, we:

                    •   Reviewed applicable Department Orders, laws and
                        regulations;

                    •   Reviewed the Combined Data Report (CDR), Conveyance
                        and Transfer Plan (CTP), and supporting documentation for
                        each;

                    •   Interviewed personnel at Headquarters, Albuquerque
                        Operations Office, and Los Alamos; and

                    •   Toured four land tracts identified in the conveyance and
                        transfer – Manhattan Monument, Site 22, TA-74, and LAAO.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the internal controls over the conveyance and transfer of land
              at Los Alamos. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of the audit. In accordance with the
              Government Performance and Results Act of 1993, we found there
              were no applicable performance measures related to conveyance and
              transfer of land at Los Alamos. We did not extensively rely on
              computer-generated data.

              We held an exit conference with the Office of Facilities Management
              and ES&H Support on April 26, 2000.




Page 10                                                    Scope and Methodology
                                                                              IG Report No.: DOE/IG-0469

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


           U.S. Department of Energy Office of Inspector General, Home Page

                                 Http://www.ig.doe.gov

Your comments would be appreciated and can be provided on the Customer Response Form
                               attached to the report.
